           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         MILITARY SERVICE
          CASUALTY CASES


    December 2009   A-01-09-29056




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
M EM ORANDUM

Date:      December 17, 2009                                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Military Service Casualty Cases (A-01-09-29056)


           OBJECTIVE

           The objective of this review was to assess the Social Security Administration's (SSA)
           efforts to streamline the disability claims process for Military Service Casualty Cases
           (MSCC).

           BACKGROUND
           The Military Service Casualty initiative is a commitment by SSA to provide expedited
                                                                                      1
           disability claim services to wounded service members and their families. SSA
           established procedures to expedite disability claims for any military service personnel
           injured October 1, 2001 or later, provided that injury occurred while they were on active
           duty.

           To receive disability benefits, an individual must first file an application with SSA. An
           SSA field office then determines whether the individual meets the non-disability criteria
           for benefits, 2 and if so, generally forwards the claim to the disability determination
           services (DDS) in the State or other responsible jurisdiction in accordance with the
           Social Security Act and Federal regulations for a disability determination. Once the
           DDS makes a determination, it sends the claim back to the SSA field office for final
           processing or to the Disability Quality Branch (DQB) for review before final processing. 3


           1
            SSA provides Disability Insurance and Supplemental Security Income to eligible individuals under
           Titles II and XVI of the Social Security Act.
           2
             For Disability Insurance benefits, the non-disability criteria include such factors as sufficient earnings.
           For Supplemental Security Income payments, the non-disability criteria include such factors as limited
           income and resources.
           3
            DQB reviews half of all allowances, selected by a predictive model, as well as 70 allowances and
           70 denials per DDS per quarter. This ensures statistically valid findings for all DDSs irrespective of size.
           A Federal quality reviewer determines whether the record supports the determination and the evidence
           and determination conform to SSA’s policies and procedures.
Page 2 - The Commissioner


The Department of Defense (DoD) identifies military casualties and provides SSA with
their Social Security numbers (SSN). SSA verifies and stores these SSNs until the
individual contacts the Agency. As of March 2008, when one of these individuals
contacts the Agency to file for disability benefits, SSA’s system will alert the field office
and add an MSCC flag to the disability claim folder to alert the adjudicator to expedite
the claim. 4

The Agency processes MSCCs under the terminal illness (TERI) procedures, which
instruct SSA and DDS staffs to handle MSCCs expeditiously because of their
sensitivity. Additionally, staff inputs coding in SSA’s systems to identify, track, and
enable reporting of the case as an MSCC.

In June 2007, SSA’s Office of Process Policy formed the Military Casualty workgroup
with representatives from several Agency components from its Headquarters and
regions. The workgroup meets regularly to discuss policy and procedures, identify and
develop training, and share lessons learned and best practices when processing claims
for military service members.

To perform our review, we obtained a file of individuals who received a disability
determination from a DDS in Calendar Year 2008. From this file, we identified
3,712 claims with an MSCC code in the “List” field and 3,415 claims with an MSCC
code in the “Litigation” field but not the “List” field (7,127 claims in total). We randomly
selected 100 cases from each of these populations for detailed analysis.

Additionally, we identified 19,050 individuals whose disability claims were not coded as
MSCC but who had military wages between 2001 and 2007. We randomly selected
250 cases from this population for detailed analysis. (See Appendix B for additional
information on our scope, methodology, and sample results. Also, see Appendices C
and D for a breakout of all sample cases by region and State.)




4
  If the individual is not automatically identified, staff must add the flag to the disability claim folder. Our
March 2005 report, Department of Defense Wage Items in the Earnings Suspense File (A-03-04-14041),
indicated that DoD’s employee records contained incorrect SSNs. Therefore, DoD’s list of Wounded
Military Personnel may also contain incorrect SSNs that would not match SSA’s records—so some claims
may not be automatically identified by the Agency as MSCC.
Page 3 - The Commissioner


RESULTS OF REVIEW
Generally, we found that SSA’s efforts to streamline the disability process for MSCCs
were successful. Overall, SSA processed most cases identified as MSCC in fewer
days than the national average. However, based on our sample results, the Agency
may not have identified all cases that qualified as MSCCs and may not have coded all
claims that received expedited processing as MSCCs. As a result, we estimate that
SSA may have
       failed to expedite 5,182 cases that met the criteria for MSCC processing and
       underreported the number of claims processed as MSCC by 3,277 cases, so
        that the Agency processed about 10,404 claims expeditiously (rather than just
        the 7,127 claims coded as MSCC in SSA’s systems).

SAMPLE RESULTS FOR CASES CODED AS MSCC

In our sample of 200 cases coded as MSCCs, we found that SSA and the DDS
appropriately identified and coded 195 cases. 5 The Agency processed these
                                                        6
195 cases at the initial level in an average of 88 days, below SSA’s national average
processing time. 7 The following timeline shows the average processing time for initial
disability claims by component.




5
  We reviewed 100 cases with an MSCC code in the “List” field and 100 cases with an MSCC code in the
“Litigation” field. Five cases did not meet the criteria and therefore should not have been coded as an
MSCC. Of the five individuals represented in these cases, three served in the military before 2001, and
two were never in the military. Of the remaining 195 cases, all but 1 had a flag on the case folder. This
case met the criteria for an MSCC but took longer than average to process because the claimant moved
to another State.
6
  The processing time from the date of application to the date of the denial notice or the date the system
completed processing an award ranged from 12 days to 326 days, with a median of 77 days. We also
determined it took the Agency 92 days, on average, to process these claims from the date of application to
the date the claim was completed—either date of denial or date paid. The Social Security Act indicates, in
part, that a Disability Insurance beneficiary is eligible to receive payments after serving a waiting period of
5 consecutive calendar months throughout which he or she has been under a disability (that is, 5 full
months after the date SSA established as the onset of the disability). The Social Security Act
§§ 223(a)(1)(E) and (c)(2), 42 U.S.C. §§ 423(a)(1)(E) and (c)(2). If a claim was allowed during this
5-month waiting period, we considered the day SSA processed the claim to be the date completed.
7
 For FY 2008, SSA reported the average processing time for all initial disability claims was 106 days.
SSA, FY 2008 Performance and Accountability Report, p. 46, November 2008.
Page 4 - The Commissioner


           Average Processing Time for Initial Claims Processed as MSCC
                                                                                   Claim
      Claimant
                                                                                   Completed*
      First
      Applied                                    DQB Completed Review - 4 days after
      for          DDS Received the Claim        DDS decision
      Disability   - 12 days after the claim
                          was taken             DDS Made Decision - 67 days
                                                after receipt



                         20                40                 60              80                100

                                                       Days
                              *The date of denial or date allowance was processed.

SSA added the MSCC flag before sending the case to the DDS in 175 of the
195 cases. 8 These 175 cases were assigned to a DDS examiner in an average of
3 days from the date the DDS received the claim, 5 days earlier than cases that did not
contain an MSCC flag.

By properly identifying and coding claims as MSCC, SSA was able to expedite
processing. For example, a man from Michigan filed for disability benefits on
September 4, 2008. The Agency identified his claim as an MSCC because he alleged
he was injured by a roadside bomb in Iraq. The DDS received the claim the next day
and allowed it in 15 days. The claimant received his first disability benefit on
September 25, 2008—3 weeks after filing for benefits.

                                                       Of the 200 sample cases coded as MSCC,
       Chart 1: Initial Decisions for 200
                                                           •       116 were allowed for disability
       Sample Cases Coded as MSCC                                  benefits at the initial level,
                                   Allowed
                                   116 Cases (58%)
                                                           •       79 were not allowed for disability
                                                                   benefits at the initial level, and
                                                           •       5 were miscoded and did not meet
                                                                   the criteria for an MSCC.

                                                       Of the 79 cases not allowed for disability
                                                       benefits at the initial level, 49 claimants did
    Not Allowed            Miscoded as MSCC            not appeal. Of the 30 cases appealed,
    79 Cases (40%)         5 Cases (2%)                7 were allowed at the reconsideration
                                                       level, and 5 were allowed at the hearings


8
 Of the remaining 20 claims, 19 were appropriately flagged as an MSCC by the DDS after developing the
case but before making a medical determination of disability and 1 was not flagged, although it was coded
as a MSCC. Of the 175 cases, 43 were automatically identified as MSCCs because the individuals’ SSNs
matched the list of Wounded Warrior Personnel provided to SSA by DoD.
Page 5 - The Commissioner


level. 9 As shown in Table 1, three individuals were still waiting for a decision on a
hearing at the time of our review.

            Table 1: Status of Pending Hearing Decisions for Sample
                             Cases Coded as MSCC
           Date Hearing was            Status as of            Was an MSCC Flag Present
                 Filed                December 2009             on the Hearing System?
          October 2008               Hearing held –
                                                                               No
                                     waiting for decision
          December 2008              Hearing held –
                                                                              Yes
                                     waiting for decision
          January 2009               Hearing not yet
                                                                               No
                                     scheduled

SAMPLE RESULTS FOR CASES WITH MILITARY EARNINGS PRESENT BUT NOT
CODED IN SSA’S SYSTEMS AS MSCC

We reviewed a sample of 250 cases with military earnings between 2001 and 2007 but
                                    10
not coded in SSA’s systems as MSCC. Of these 250 cases, we determined

                                                           •   68 appeared to meet MSCC criteria
          Chart 2: 250 Sample Cases Not                        but were not expedited;
                  Coded as MSCC
                                                           •   43 had an MSCC flag on the
                               Correctly Not                   disability claim folder;
       Flagged as MSCC         Identified as MSCC
       43 Cases (17%)          136 Cases (55%)             •   136 were appropriately not
                                                               identified as MSCC; and
                                                           •   3 were for family members filing for
                                                               benefits on military service
                                                               members’ records.

       May Have Met
       MSCC Criteria         Family Members’ Claims
       68 Cases (27%)        3 Cases (1%)




9
  Of these 30 claimants, 13 appealed to the hearings level. Of these 13 claims, 10 were flagged as MSCC
in the Hearings Office’s system, but 3 were not.
10
     Of the 250 sample cases, 3 were in the file of Wounded Military Personnel provided to SSA by DoD.
Page 6 - The Commissioner


Possible MSCC Cases

Of the 250 sample cases not coded as MSCC, 68 appeared to meet MSCC criteria.
The Agency processed these 68 initial claims in an average of 103 days, ranging from
19 to 319 days. 11 The following timeline shows the average processing time for these
68 initial disability claims by component.

                  Average Processing Time for Possible MSCC Initial Claims


     Claimant                                                                             Claim
     First                                                                              Completed*
     Applied                              DQB Completed Review - 2 days after DDS decision
     for
     Disability    DDS Received the Claim - 17                      DDS Made Decision - 82
                   days after the claim was taken                   days after receipt




                      20                 40               60               80                100
                                                       Days
                           *The date of denial or date allowance was processed.

By not identifying claims as MSCC, SSA may not have expedited claims that qualified
under MSCC criteria. For example, a man from Texas applied for disability benefits in
December 2007. He alleged his disability began in July 2006 when he was discharged
from the military. He stated his disability was due to post-traumatic stress disorder;
nerve damage in his arms, legs, and left foot; and scarring of the bone. His claim was
not identified as an MSCC. SSA sent his claim to the DDS in February 2008 and it was
allowed in June 2008, 172 days after he filed the claim. Had SSA flagged and coded
the claim as an MSCC, the claimant might have received his benefits sooner.




11
  It took the Agency 104 days, on average, to process these claims from the date of application to the
date the claim was completed—the date of denial, date paid if allowed, or date processed if allowed during
the 5-month waiting period.
Page 7 - The Commissioner


                                                     Of the 68 cases that were not identified as
         Chart 3: Initial Decisions for              MSCC but may have met the criteria,
       68 Sample Cases that May Have                     •    14 were allowed for disability benefits
             Met MSCC Criteria                                at the initial level, and
     Allowed
     14 Cases (21%)                                      •    54 were not allowed for disability
                                                              benefits at the initial level.

                                                     Of the 54 cases not initially allowed, 36 were
                                                     not appealed. Of the 18 cases that were
                                                     appealed, 3 were allowed at the
                                                     reconsideration level, and 5 were allowed at
                                                     the hearings level. As of August 2009,
                               Not Allowed           seven claimants were waiting for decisions
                               54 Cases (79%)
                                                     on their appeals.

Flagged as MSCC but Not Coded in SSA’s Systems

Of the 250 sample cases not coded as MSCCs in SSA’s systems, 43 had an MSCC
flag on the disability folder. Although these claims received expedited processing, SSA
was not able to track them for reporting purposes or for potential research on MSCC
issues. The Agency processed these 43 cases at the initial level in an average of
86 days, ranging from 12 to 218 days. 12 The following timeline shows the average
processing time for these 43 initial disability claims by component.

                  Average Processing Time for Initial Claims Flagged as MSCC
                               but Not Coded in SSA's Systems

            Claimant                                                              Claim
            First                                                               Completed*
            Applied       DQB Completed Review - 2 days after DDS decision
            for          DDS Received the Claim -
            Disability    14 days after the claim      DDS Made Decision - 63
                                was taken              days after receipt




                             20                40               60              80

                                                       Days
                                  *The date of denial or date allowance was processed.




12
  It took the Agency 87 days, on average, to process these claims from the date of application to the date
the claim was completed—the date of denial, date paid if allowed, or date processed if allowed during the
5-month waiting period.
Page 8 - The Commissioner


                                                    Of the 43 sample cases that were flagged as
      Chart 4: Initial Determinations for
                                                    MSCC but not coded in SSA’s systems,
     43 Sample Cases Flagged as MSCC
      but Not Coded in SSA’s Systems                    •   22 were allowed for disability benefits
                                Allowed                     at the initial level, and
                                22 Cases (51%)
                                                        •   21 were not allowed for disability
                                                            benefits at the initial level.

                                                    Of the 21 claimants not initially allowed, 9 did
                                                    not appeal. Of the 12 claimants who
                                                    appealed, 3 were allowed at the
                                                    reconsideration level, and 4 were allowed at
     Not Allowed                                    the hearings level. As of August 2009,
     21 Cases (49%)                                 three claimants were waiting for decisions on
                                                    their appeals.

SSA’s EFFORTS TO IMPROVE THE MSCC PROCESS

SSA has made efforts to improve the MSCC process. As of August 2009, SSA’s
MSCC workgroup had met 19 times to discuss the initiative and address issues related
to these claims. Additionally, on February 12, 2009, the Office of Disability Adjudication
and Review updated its procedures regarding processing MSCCs at the hearing level. 13
Furthermore, the Office of Disability Programs
      •   prepared resource kits with a wide-ranging collection of internal and external
          publications pertaining to Wounded Warriors, including contacts, articles,
          instructions, check sheets, and training materials;
      •   issued an administrative message on October 30, 2009 to provide consolidated
          information on the processing of claims for the MSCC workload; and
      •   conducted a Wounded Warrior Webinar on November 4, 2009 to reach out to
          service members, their family and friends, and military advocates and
          organizations.

CONCLUSION AND RECOMMENDATION

Generally, we found that SSA’s efforts to streamline the disability process for MSCC
were successful. SSA processed cases identified as MSCC in an average of 88 days,
18 days faster than the national average. However, the Agency may not have identified
all cases that qualified as MSCC and may not have coded all claims that received
expedited processing as MSCCs.




13
     The Hearings, Appeals and Litigation Law Manual I-2-1-40.
Page 9 - The Commissioner


To improve the effectiveness of MSCCs, we recommend that SSA ensure that all
claimants who qualify for expedited processing under MSCC criteria are identified and
coded properly.

AGENCY COMMENT

SSA agreed with the recommendation (see Appendix E).




                                              Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results

APPENDIX C – Cases Coded as Military Service Casualty Cases by Region and State

APPENDIX D – Cases with Military Earnings but Not Coded as Military Service
             Casualty Cases by Region and State

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                           Appendix A

Acronyms
DDS    Disability Determination Services
DoD    Department of Defense
DQB    Disability Quality Branch
MSCC   Military Service Casualty Case
SSA    Social Security Administration
SSN    Social Security Number
TERI   Terminal Illness
                                                                           Appendix B

Scope, Methodology, and Sample Results
To accomplish our objective, we:

      Reviewed applicable sections of the Social Security Act and Social Security
       Administration (SSA) regulations, rules, policies, and procedures.

      Obtained a file of all disability claims with an initial or reconsideration level
       determination in Calendar Year 2008. From this file, we:

          o Identified 3,712 disability applicants whose claims were processed as
            Military Service Casualty Cases (MSCC) in Calendar Year 2008. We
            identified these cases based on coding in the “List” field on SSA’s records.

          o Identified 3,415 disability applicants whose claims were processed as
            MSCCs in Calendar Year 2008. We identified these cases based on
            coding in the “Litigation” field on SSA’s records and removed any cases
            already in the population based on the “List” field.

          o Selected a sample of 100 cases from each population. For each claim,
            we:

              (a) Reviewed SSA’s systems, including the Disability Determination
                  Services Query, Master Beneficiary Record, Supplemental Security
                  Record, Modernized Claims System, Modernized Supplemental
                  Security Income Claims System, and electronic disability folder.

              (b) Determined whether the case was properly coded.

              (c) Calculated the number of days it took the Agency to complete the
                  claim.

          o Matched the file against SSA’s Master Earnings File to identify
            19,050 individuals whose disability claims were not coded as MSCC but
            had military earnings between 2001 and 2007.




                                              B-1
          o Selected a sample of 250 cases from this population. For each case, we:

             (a) Reviewed SSA’s systems, including the Disability Determination
                 Services Query, Master Beneficiary Record, Supplemental Security
                 Record, Modernized Claims System, Modernized Supplemental
                 Security Income Claims System, and electronic disability folder.

             (b) Determined whether the claim (1) may have met MSCC criteria,
                 (2) was flagged as an MSCC, (3) was appropriately not identified as an
                 MSCC, or (4) was the claim of a family member filing for benefits on
                 the military service members record.

             (c) Calculated the number of days it took the Agency to complete the
                 claim if it appeared to have met the criteria of an MSCC or was flagged
                 as an MSCC.

          o Projected the results to the population for (1) cases that were not
            expedited but appeared to meet MSCC criteria and (2) cases that had an
            MSCC flag on the disability claim folder but were not coded in SSA’s
            systems.

          o Compared the Social Security numbers for cases coded as MSCC to the
            list of Wounded Military Personnel provided to SSA by the Department of
            Defense to determine how many claims were identified as MSCC because
            of the automated match.

We conducted our audit between May and August 2009 in Boston, Massachusetts.
The entities audited were the Offices of Disability Programs under the Deputy
Commissioner for Retirement and Disability Policy and Disability Determinations under
the Deputy Commissioner for Operations. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                          B-2
SAMPLE RESULTS

            Table B-1: Cases with Military Earnings but Not
                          Coded As MSCC
            Population                                            19,050
            Sample Size                                               250
                    Applicants Whose Claims Possibly
                          Met the MSCC Criteria
            Sample Results                                              68
            Point Estimate                                          5,182
             Projection Lower Limit                                 4,310
             Projection Upper Limit                                 6,131
                 Applicants Whose Claims Were Flagged
                        but Not Coded as MSCC
            Sample Results                                              43
            Point Estimate                                          3,277
             Projection Lower Limit                                 2,554
             Projection Upper Limit                                 4,111
             Note: All Projections are at the 90-percent confidence level.




                                         B-3
                                                                                Appendix C

Cases Coded as Military Service Casualty
Cases by Region and State
Tables C-1 through C-10 show our 200 sample cases coded in the Social Security
Administration’s systems as Military Service Casualty Cases (MSCC) by Region and
State. 1

                           Table C-1: Summary of Sample MSCCs
                                     Region 1: Boston
                                             Number of       Proportion of 200
                           State
                                               Cases          Sample Cases
                   Connecticut                     0                 0.0%
                   Maine                           1                 0.5%
                   Massachusetts                   1                 0.5%
                   New Hampshire                   0                 0.0%
                   Rhode Island                    0                 0.0%
                   Vermont                         0                 0.0%

                   Total                           2                 1.0%



                           Table C-2: Summary of Sample MSCCs
                                    Region 2: New York
                                             Number of        Proportion of 200
                           State
                                               Cases           Sample Cases
                   New Jersey                      1                  0.5%
                   New York                       11                  5.5%
                   Puerto Rico                     5                  2.5%

                   Total                          17                  8.5%




1
  We reviewed 100 cases with a MSCC code in the “List” field and 100 cases with a MSCC code in the
“Litigation” field.


                                                 C-1
        Table C-3: Summary of Sample MSCCs
               Region 3: Philadelphia
                       Number of   Proportion of 200
          State
                         Cases      Sample Cases
Delaware                   0             0.0%
District of Columbia       5             2.5%
Maryland                   3             1.5%
Pennsylvania               1             0.5%
Virginia                   2             1.0%
West Virginia              2             1.0%

Total                     13             6.5%



        Table C-4: Summary of Sample MSCCs
                   Region 4: Atlanta
                       Number of   Proportion of 200
          State
                         Cases      Sample Cases
Alabama                    1             0.5%
Florida                    2             1.0%
Georgia                    5             2.5%
Kentucky                   6             3.0%
Mississippi                2             1.0%
North Carolina            21            10.5%
South Carolina             1             0.5%
Tennessee                  0             0.0%

Total                     38            19.0%




                         C-2
           Table C-5: Summary of Sample MSCCs
                     Region 5: Chicago
                        Number of   Proportion of 200
           State
                          Cases      Sample Cases
Ohio                        4             2.0%
Illinois                    6             3.0%
Indiana                     5             2.5%
Michigan                    4             2.0%
Minnesota                   1             0.5%
Wisconsin                   1             0.5%

Total                      21            10.5%


           Table C-6: Summary of Sample MSCCs
                      Region 6: Dallas
                                     Proportion of
                       Number of
           State                      200 Sample
                        Cases
                                        Cases
Arkansas                    5              2.5%
Louisiana                   3              1.5%
New Mexico                  0              0.0%
Oklahoma                    2              1.0%
Texas                      45            22.5%

Total                      55            27.5%




                          C-3
        Table C-7: Summary of Sample MSCCs
                Region 7: Kansas City
                                  Proportion of
                    Number of
        State                      200 Sample
                     Cases
                                     Cases
Iowa                     0             0.0%
Kansas                   4             2.0%
Missouri                 5             2.5%
Nebraska                 0             0.0%

Total                    9             4.5%



        Table C-8: Summary of Sample MSCCs
                   Region 8: Denver
                     Number of   Proportion of 200
        State
                       Cases      Sample Cases
Colorado                13             6.5%
Montana                  0             0.0%
North Dakota             0             0.0%
South Dakota             0             0.0%
Utah                     0             0.0%
Wyoming                  0             0.0%

Total                   13             6.5%




                       C-4
        Table C-9: Summary of Sample MSCCs
               Region 9: San Francisco
                     Number of   Proportion of 200
         State
                       Cases      Sample Cases
Arizona                   2            1.0%
California                7            3.5%
Hawaii                    4            2.0%
Nevada                    0            0.0%

Total                    13            6.5%


        Table C-10: Summary of Sample MSCCs
                  Region 10: Seattle
                     Number of   Proportion of 200
         State
                       Cases      Sample Cases
Alaska                    2            1.0%
Idaho                     5            2.5%
Oregon                    0            0.0%
Washington               12            6.0%

Total                    19            9.5%




                        C-5
                                                                                     Appendix D

Cases with Military Earnings but Not Coded as
Military Service Casualty Cases by Region and
State
We reviewed a sample of 250 individuals whose disability claims were not coded as
Military Service Casualty Cases (MSCC) in the Social Security Administration’s systems
but who had military earnings between 2001 and 2007 (as shown in Appendix B). Of
these 250 cases, we determined
        • 68 may have met MSCC criteria but were not expedited;
        • 43 had an MSCC flag on the disability claim folder;
        • 136 were appropriately not identified as MSCC; and
        • 3 were family members filing for benefits on military service members’
           records.

Tables D-1 through D-10 show these 250 cases by region and State. 1

                              Table D-1: Summary of Sample MSCCs
                                        Region 1: Boston
                                                                           Appropriately
                        Possibly met                Flagged as
                                                                          Not Identified as
                        MSCC Criteria                 MSCC                                       Total
                                                                               MSCC
         State                                                                                    by
                                 Proportion                Proportion               Proportion   State
                                    of 68                     of 43                   of 136
                       Number      Cases        Number       Cases        Number      Cases
    Connecticut              0       0.0%              0       0.0%             0       0.0%         0
    Maine                    0       0.0%              0       0.0%             0       0.0%         0
    Massachusetts            1       1.5%              0       0.0%             1       0.7%         2
    New
                             0       0.0%              1       2.3%             0       0.0%         1
    Hampshire
    Rhode Island             0       0.0%              0       0.0%             0       0.0%         0
    Vermont                  0       0.0%              1       2.3%             1       0.7%         2

    TOTAL                    1       1.5%              2       4.6%             2       1.4%         5




1
    Due to rounding, the total percentages for these 10 tables may not add to 100 percent.


                                                     D-1
                            Table D-2: Summary of Sample MSCCs
                                     Region 2: New York
                                                                          Appropriately
                       Possibly met               Flagged as
                                                                         Not Identified as
                       MSCC Criteria                MSCC                                            Total
                                                                              MSCC
         State                                                                                       by
                               Proportion                 Proportion               Proportion       State
                                  of 68                      of 43                   of 136
                      Number     Cases         Number       Cases        Number      Cases
    New Jersey             0       0.0%              0        0.0%             4       2.9%              4
    New York               2       2.9%              2        4.7%             6       4.4%              10
                  2
    Puerto Rico            0       0.0%              1        2.3%             2       1.5%              3

    TOTAL                  2       2.9%              3        7.0%            12       8.8%              17


                           Table D-3: Summary of Sample MSCCs
                                   Region 3: Philadelphia
                                                                          Appropriately
                       Possibly met               Flagged as
                                                                         Not Identified as
                       MSCC Criteria                MSCC                                           Total
                                                                              MSCC
         State                                                                                      by
                               Proportion                 Proportion               Proportion      State
                                  of 68                      of 43                   of 136
                      Number     Cases         Number       Cases       Number       Cases
    Delaware               0       0.0%              0        0.0%             0       0.0%               0
    District of
                           0       0.0%              1        2.3%             0       0.0%               1
    Columbia
    Maryland               0       0.0%              0        0.0%             4       2.9%               4
    Pennsylvania           5       7.4%              2        4.7%             4       2.9%              11
    Virginia               1       1.5%              0        0.0%             6       4.4%               7
    West Virginia          3       4.4%              0        0.0%             1       0.7%               4

    TOTAL                  9      13.3%              3        7.0%           15      10.9%               27




2
  Puerto Rico also had a case for a family member filing for benefits on the military service member’s
record.


                                                    D-2
                      Table D-4: Summary of Sample MSCCs
                                 Region 4: Atlanta
                                                              Appropriately
                  Possibly met           Flagged as
                                                             Not Identified as
                  MSCC Criteria            MSCC                                    Total
                                                                  MSCC
       State                                                                        by
                          Proportion            Proportion            Proportion   State
                             of 68                 of 43                of 136
                 Number     Cases      Number     Cases      Number     Cases
Alabama               5       7.4%          0       0.0%          4       2.9%         9
Florida               7     10.3%           2       4.7%          7       5.1%        16
Georgia               3       4.4%          4       9.3%          6       4.4%        13
Kentucky              3       4.4%          1       2.3%          2       1.5%         6
Mississippi           1       1.5%          0       0.0%          4       2.9%         5
North Carolina        3       4.4%          0       0.0%          9       6.6%        12
South Carolina        1       1.5%          0       0.0%          4       2.9%         5
Tennessee             1       1.5%          2       4.7%          3       2.2%         6

TOTAL               24      35.4%           9     21.0%          39     28.5%         72


                      Table D-5: Summary of Sample MSCCs
                                Region 5: Chicago
                                                              Appropriately
                  Possibly met           Flagged as
                                                             Not Identified as
                  MSCC Criteria            MSCC                                    Total
                                                                  MSCC
       State                                                                        by
                          Proportion            Proportion            Proportion   State
                             of 68                 of 43                of 136
                 Number     Cases      Number     Cases      Number     Cases
Illinois              0       0.0%          1       2.3%          3       2.2%         4
Indiana               1       1.5%          0       0.0%          1       0.7%         2
Michigan              0       0.0%          0       0.0%          1       0.7%         1
Minnesota             0       0.0%          1       2.3%          4       2.9%         5
Ohio                  2       2.9%          1       2.3%          8       5.9%        11
Wisconsin             0       0.0%          0       0.0%          1       0.7%         1

TOTAL                 3       4.4%          3       6.9%         18     13.1%         24




                                          D-3
                              Table D-6: Summary of Sample MSCCs
                                         Region 6: Dallas
                                                                           Appropriately
                        Possibly met                Flagged as
                                                                          Not Identified as
                        MSCC Criteria                 MSCC                                           Total
                                                                               MSCC
           State                                                                                      by
                                 Proportion                 Proportion               Proportion      State
                                    of 68                      of 43                   of 136
                       Number      Cases         Number       Cases       Number       Cases
               3
    Arkansas                 0       0.0%              0        0.0%             5       3.7%             5
    Louisiana                1       1.5%              0        0.0%             3       2.2%             4
    New Mexico               1       1.5%              1        2.3%             0       0.0%             2
    Oklahoma                 1       1.5%              2        4.7%             1       0.7%             4
    Texas                   12      17.6%              1        2.3%           14      10.3%             27

    TOTAL                   15      22.1%              4        9.3%           23      16.9%             42


                              Table D-7: Summary of Sample MSCCs
                                      Region 7: Kansas City
                                                                           Appropriately
                        Possibly met                Flagged as
                                                                          Not Identified as
                        MSCC Criteria                 MSCC                                          Total
                                                                               MSCC
           State                                                                                     by
                                 Proportion                 Proportion               Proportion     State
                                    of 68                      of 43                   of 136
                       Number      Cases         Number       Cases       Number       Cases
    Iowa                     0       0.0%              0        0.0%             0       0.0%             0
    Kansas                   0       0.0%              1        2.3%             3       2.2%             4
    Missouri                 4       5.9%              2        4.7%             4       2.9%            10
    Nebraska                 2       2.9%              1        2.3%             0       0.0%             3


    TOTAL                    6       8.8%              4        9.3%             7       5.1%            17




3
    Arkansas also had a case for a family member filing for benefits on the military service member’s record.


                                                      D-4
                              Table D-8: Summary of Sample MSCCs
                                         Region 8: Denver
                                                                           Appropriately
                        Possibly met                Flagged as
                                                                          Not Identified as
                        MSCC Criteria                 MSCC                                          Total
                                                                               MSCC
           State                                                                                     by
                                 Proportion                Proportion               Proportion      State
                                    of 68                     of 43                   of 136
                       Number      Cases         Number      Cases        Number      Cases
    Colorado                 0       0.0%              2       4.7%             0       0.0%              2
    Montana                  0       0.0%              0       0.0%             1       0.7%              1
    North Dakota             0       0.0%              0       0.0%             1       0.7%              1
    South Dakota             0       0.0%              0       0.0%             0       0.0%              0
    Utah                     0       0.0%              1       2.3%             1       0.7%              2
    Wyoming                  0       0.0%              0       0.0%             0       0.0%              0


    TOTAL                    0       0.0%              3       7.0%             3       2.1%              6


                              Table D-9: Summary of Sample MSCCs
                                     Region 9: San Francisco
                                                                           Appropriately
                        Possibly met                Flagged as
                                                                          Not Identified as
                        MSCC Criteria                 MSCC                                          Total
                                                                               MSCC
           State                                                                                     by
                                 Proportion                Proportion               Proportion      State
                                    of 68                     of 43                   of 136
                       Number      Cases         Number      Cases        Number      Cases
    Arizona                  1       1.5%              2       4.7%             0       0.0%              3
    California               4       5.9%              8     18.6%             13       9.6%             25
    Hawaii                   1       1.5%              0       0.0%             0       0.0%              1
              4
    Nevada                   0       0.0%              0       0.0%             1       0.7%              1


    TOTAL                    6       8.9%            10      23.3%             14      10.3%             30




4
    Nevada also had a case for a family member filing for benefits on the military service member’s record.


                                                     D-5
                 Table D-10: Summary of Sample MSCCs
                           Region 10: Seattle
                                                          Appropriately
              Possibly met           Flagged as
                                                         Not Identified as
              MSCC Criteria            MSCC                                    Total
                                                              MSCC
    State                                                                       by
                      Proportion            Proportion            Proportion   State
                         of 68                 of 43                of 136
             Number     Cases      Number     Cases      Number     Cases
Alaska            0       0.0%          1       2.3%          0       0.0%         1
Idaho             1       1.5%          0       0.0%          0       0.0%         1
Oregon            0       0.0%          1       2.3%          1       0.7%         2
Washington        1       1.5%          0       0.0%          2       1.5%         3


TOTAL             2       3.0%          2       4.6%          3       2.2%         7




                                      D-6
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      December 4, 2009                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Dean Landis for
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Military Service Casualty Cases”
           (A-01-09-29056)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                           E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“MILITARY SERVICE CASUALTY CASES” (A-01-09-29056)

Your review revealed we succeeded in streamlining the disability process for Military Service
Casualty Cases (MSCC). We processed cases identified as MSCC faster than the average
processing time for initial disability claims. However, your review also revealed we do not
always properly identify those cases qualified as MSCC. As a result, we failed to expedite all the
MSCCs. As indicated in our comments below, we have taken steps to continue improving the
processing of these cases.

Recommendation

In order to improve the effectiveness of MSCCs, the Social Security Administration (SSA)
should ensure that all claimants who qualify for expedited processing under MSCC criteria are
identified and coded properly.

Comment

We agree.

       •    We will continue to work on improving communications with our front line
            employees to ensure they understand and comply with the special handling
            requirements for these cases. We have reminded our direct public contact employees
            of the importance of identifying wounded warriors, not only during the initial claims
            application but also throughout the entire claims process. This will help to ensure the
            wounded warriors receive the special services to which they are entitled.

       •    For cases processed in our Office of Disability Adjudication and Review, we updated
            the governing Hearings, Appeals, and Litigation Law Manual (HALLEX) section
            (I-2-1-40 – Critical Cases). We issued the updated HALLEX transmittal on
            February 12, 2009.

       •    On October 31, 2009, we reissued an administrative message (AM-07056REV),
            providing consolidated information on the processing of claims for the military
            casualty workload.

       •    In 2009, we worked closely with various military centers to identify wounded
            warriors. In addition, we recently held a wounded warrior webinar, which
            2000 wounded warriors and their families viewed. These outreach efforts inform
            individuals about the services we provide and help us to identify wounded warriors
            who applied for benefits.

[SSA also provided technical comments, which were incorporated into the report where
appropriate.]




                                                E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

   Kevin Joyce, IT Specialist

   Brennan Kraje, Statistician

   David Mazzola, Audit Manager

   Katie Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-29056.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
